<html>
<title> - DEPARTMENTS OF LABOR, HFALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2015</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
               DEPARTMENTS OF LABOR, HFALTH AND HUMAN
               SERVICES, EDUCATION, AND RELATED AGENCIES
                       
                     APPROPRIATIONS FOR 2015 
======================================================================

                               HEARINGS 

                               BEFORE A
                                     
                          SUBCOMMITTEE OF THE 
                                
                      COMMITTEE ON APPROPRIATIONS
                           
                        HOUSE OF REPRESENTATIVES 

                      ONE HUNDRED THIRTEENTH CONGRESS
                          
                               SECOND SESSION 

           SUBCOMMIITEE ON THE DEPARTMENTS OF LABOR, HEALTH AND
                               
              HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES 

     JACK KINGSTON, Georgia, Chairman     ROSA L. DELAURO, Connecticut    
     STEVE WOMACK, Arkansas               LUCILLE ROYBAL-ALLARD, California
     CHARLES J. FLEISCHMANN, Tennessee    BARBARA LEE, California
     DAVID P. JOYCE, Ohio                 MICHAEL M. HONDA, California 
     ANDY HARRIS, Maryland
     MARTHA ROBY, Alabama
     CHRIS STEWART, Utah 
 
 
NOTE: Under Committee Rules, Mr. Rogers, as Chairman ofthe Full
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full Committee
are authorized to sit as Members of all Subcommittees.

                     SUSAN Ross, JOHN BARTRUM, ALLISON DETERS, 
                     
                    JENNIFER CAMA, JUSTIN GIBBONS, and LORI BIAS, 
                              Subcommittee Staff 
                              
                              ___________________
                              
                                     PART 7
                                     
                          OUTSIDE WITNESS TESTIMONY 

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 _______________
                                 
              Printed for the u se of the Committee on Appropriations
              
              
                      U.S. GOVERNMENT PUBLISHING OFFICE 
                         
92-675                         WASHINGTON : 2015 

[TEXT NOT AVAILABLE]
</pre></body></html>
